uoun't /\ppeai: i»-1 ooo

uuu. o

meu: uo/uo/^uzu

ry: i ui o

UNPUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 19-7386
EUGENE PETER SCHULER,
Petitioner - Appellant,
v.

HAROLD CLARKE, Director, VDOC,
Respondent - Appellee.

Appeal from the United States District Court for the Eastern District of Virginia, at
Alexandria. Leonie M. Brinkema, District Judge. (l:16-cv-01151-LMB-JFA)
Submitted: February 25, 2020

Decided: March 6, 2020

Before AGEE, WYNN, and FLOYD, Circuit Judges.

Dismissed in part and affirmed in part by unpublished per curiam opinion.

Eugene Peter Schuler, Appellant Pro Se.

Unpublished opinions are not binding precedent in this circuit.

uooA-vf Mppeai: i a- / ooo

uuc: o

rneu: uo/uo/^u^u

rg: ^ ui o

PER CURIAM:
Eugene Peter Schuler seeks to appeal the district court’s orders denying his 28
U.S.C. § 2254 (2018) petition, his Fed. R. Civ. P. 60(b)(6) motion, and his request for leave
to amend his Rule 60(b)(6) motion. We dismiss in part and affirm in part.
Beginning with the first two orders, we dismiss the appeal for lack of jurisdiction
because the notice of appeal was not timely filed. In civil cases, parties have 30 days after
the entry of the district court’s final judgment or order to note an appeal, Fed. R. App. P.
4(a)(1)(A), unless the district court extends the appeal period under Fed. R. App. P. 4(a)(5)
or reopens the appeal period under Fed. R. App. P. 4(a)(6). “[T]he timely filing of a notice
of appeal in a civil case is a jurisdictional requirement.” Bowles v. Russell, 551 U.S. 205,
214(2007).
The district court entered its order denying Schuler’s § 2254 petition on November
9, 2016, and denied his Rule 60(b) motion on July 19, 2019. Schuler filed the notice of
appeal on August 30, 2019.1 Because Schuler failed to file a timely notice of appeal or to
obtain an extension or reopening of the appeal period as to the order denying the § 2254

For purposes of this appeal, we assume that the date appearing on the notice of
appeal’s cover page is the earliest date Schuler could have delivered the notice to prison
officials for mailing to the court. Fed. R. App. P. 4(c)(1); Houston v. Lack, 487 U.S. 266,
276(1988).
2

uooaw

Mppeai: i»-/ooo

laju.

o

rneu; uo/uo/^u^u

rg: oui o

petition or the order denying the Rule 60(b) motion, we dismiss the appeal from those
orders.2
Turning to Schuler’s appeal from the denial of his request for leave to amend the
Rule 60(b) motion, we confine our review to the issues raised in the Appellant’s brief. See
4th Cir. R. 34(b). Because Schuler’s informal brief does not challenge the basis for the
district court’s denial of his request for leave to amend his Rule 60(b) motion, Schuler has
forfeited appellate review of that order. See Jackson v. Lightsey, 775 F.3d 170, 177 (4th
Cir. 2014) (“The informal brief is an important document under Fourth Circuit rules; our
review is limited to issues preserved in that brief.”). Accordingly, we affirm the district
court’s order denying Schuler’s request for leave to amend the Rule 60(b) motion.
We dispense with oral argument because the facts and legal contentions are
adequately presented in the materials before this court and argument would not aid the
decisional process.
DISMISSED IN PART,
AFFIRMED IN PART

2 Additionally, we note that Schuler previously appealed the November 9, 2016,
order, see Schuler v. Clarke, 689 F. App’x 186 (4th Cir. 2017) (No. 16-7762), and is not
entitled to file a second appeal from that order.
3

uov^M^t /Appeal. i»-/ooo

uou: »-<£

meu: uo/uo/^u^u

rg: i 01 i

FILED: March 6, 2020
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 19-7386
(1:16-cv-01151 -LMB-JFA)

EUGENE PETER SCHULER
Petitioner - Appellant
v.

HAROLD CLARKE, Director, VDOC
Respondent - Appellee

JUDGMENT
In accordance with the decision of this court, the judgment of the district
court is affirmed in part. The appeal is dismissed in part.
This judgment shall take effect upon issuance of this court's mandate in
accordance with Fed. R. App. P. 41.
/s/ PATRICIA S. CONNOR. CLERK

Case 1:16-cv-01151-LMB-JFA Document 46 Filed 08/05/19 Page 1 of 2 PagelD# 233

IN THE UNITED STATES DISTRICT COURT FOR THE
EASTERN DISTRICT OF VIRGINIA
Alexandria Division
Eugene Peter Schuler,
Petitioner,
v.
Harold Clarke,
Respondent.

)
)
)
)
)
)
)

l:16cvll51 (LMB/JFA)

ORDER
By Memorandum Opinion and Order entered on November 9,2016, this Court dismissed
as time-barred Virginia inmate Eugene Peter Schuler’s pro se petition for a writ of habeas corpus
pursuant to 28 U.S.C. § 2254. See [Dkt. No. 8]. The United States Court of Appeals for the
Fourth Circuit affirmed that dismissal, and the United States Supreme Court denied Schuler a
writ of certiorari. See Schuler v. Clarke. 689 F. App’x 186 (4th Cir. 2017), cert, denied, 2018
U.S. LEXIS 516 (Jan, 8,2018).
Last month, this Court denied Schuler’s second motion for reconsideration pursuant to
Federal Rule of Civil Procedure 60(b). See [Dkt. No. 44 (denying Dkt No. 42)]. See also [Dkt.
No. 23 (denying Dkt No. 22 (Schuler’s first motion for reconsideration))].
Schuler has now filed a two-page Request for Leave to Amend. See [Dkt. No. 45].
Schuler’s filing does not state clearly how he proposes to amend his second motion for
reconsideration, only that he would like an opportunity to do so. See id. Because Schuler has no
entitlement to amend his second motion for reconsideration and because it would not serve the
interests ofjustice to prolong this case needlessly, Schuler’s motion will be denied.
Accordingly, it is hereby
ORDERED that Schuler’s Request for Leave to Amend [Dkt. No. 45] be and is DENIED.

case 1:16-cv-01151-LMB-JFA Document 46 Filed 08/05/19 Page 2 of 2 PagelD# 234

To appeal this decision, Schuler must file a written notice of appeal with the Clerk’s
office within thirty (30) days of the date of this Order. See Fed. R. App. P. 4(a). A written
notice of appeal is a short statement indicating a desire to appeal and including the date of the
Order Schuler wishes to appeal. Failure to file a timely notice of appeal waives the right to
appeal this decision.
The Cleric is directed to send a copy of this Order to Schuler.
Entered this JT_day of

, 2019.

Alexandria, Virginia
/st

Leonie M, Drinkema
United States District Judge

2

uoom «ppeai: ia-/ooo

uou: i o

meu: u^t/uz/^u^u

ry: t ui i

FILED: April 7, 2020
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 19-7386
(1:16-cv-01151 -LMB-JFA)

EUGENE PETER SCHULER
Petitioner - Appellant
v.

HAROLD CLARKE, Director, VDOC
Respondent - Appellee

ORDER
The court denies the petition for rehearing and rehearing en banc. No judge
requested a poll under Fed. R. App. P. 35 on the petition for rehearing en banc.
Entered at the direction of the panel: Judge Agee, Judge Wynn, and Judge
Floyd.
For the Court
/s/ Patricia S. Connor. Clerk

